 

C@OCKLE

2311 Douglas Street L ega l B rie fs E-Mail Address:
Omaha, Nebraska 68102-1214 8 Est. 1923 contact@cocklelegalbriefs.com
1-800-225-6964 Web Site
(402) 342-2831 www.cocklelegalbriefs.com
Fax: (402) 342-4850 No. 19-968

CHIKE UZUEGBUNAM, ET AL.,
Petitioners,

Vv.
STANLEY C. PRECZEWSKI, ET AL.,
Respondents.

AFFIDAVIT OF SERVICE

I, Andrew Cockle, of lawful age, being duly sworn, upon my oath state that I did, on the 28th day of February, 2020, send out
from Omaha, NE 2 package(s) containing 3 copies of the BRIEF OF AMICUS CURIAE FOUNDATION FOR MORAL
LAW IN SUPPORT OF PETITIONERS in the above entitled case. All parties required to be served have been served by
Priority Mail. Packages were plainly addressed to the following:

SEE ATTACHED
To be filed for:
LAURA CLARK MATTHEW J. CLARK*
7007 Fulton Court *Counsel of Record
Montgomery, AL 36101 JOHN A. EIDSMOE
334-356-2400 FOUNDATION FOR MORAL LAW
laurag@knology.net One Dexter Avenue

Montgomery, AL 36104
matt@morallaw.org
334-262-1245

Counsel for Amicus Curiae

Subscribed and sworn to before me this 28th day of February, 2020.
am duly authorized under the laws of the State of Nebraska to administer oaths.

My Comm, Exp, Septombar &, 2023

 

TENAAL ROTARY State of Nebraska ( bee abtib & Chi,
RENEE J. GOSS 0 . *

Notary Public / Affiant 39562

 
Service List for No. 19-968 (Foundation for Moral Law Amicus Brief)

Counsel of Record for Petitioners
John J. Bursch

Alliance Defending Freedom

440 First Street, NW.

Suite 600

Washington, DC 20001
jbursch@adflegal.org

(616) 450-4235

Party name: Chike Uzuegbunam, et al.

Counsel of Record for Respondents
Andrew Alan Pinson

Office of the Georgia Attorney General
40 Capital Square SW

Atlanta, GA 30334-1300
apinson@law.ga.gov

404-651-9453

Party name: Stanley Preczewski, et al.
